 AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
BEXAR COUNTY CRIMINAL INVESTIGATION LABORATORY
               SAN ANTONIO, TEXAS



            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division


           Audit Report GR-60-11-004
                 November 2010
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
 BEXAR COUNTY CRIMINAL INVESTIGATION LABORATORY
                SAN ANTONIO, TEXAS

                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Bexar County
Criminal Investigation Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      Our audit generally covered the period from July 2008 through June
2010. The objectives of our audit were to determine if: (1) the Laboratory
was in compliance with the NDIS participation requirements; (2) the
Laboratory was in compliance with the Quality Assurance Standards (QAS)
issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in CODIS
databases were complete, accurate, and allowable for inclusion in NDIS.

     Our review determined the following:

     •   The Laboratory was in compliance with the NDIS participation
         requirements tested. Specifically, we found that CODIS access is
         properly safeguarded, Laboratory personnel requirements are being
         fulfilled, and policies and procedures related to NDIS are available
         and followed by Laboratory staff.

     •   The Laboratory’s most recent internal and external audits and
         policies and procedures related to sample security, sample
         processing, and sample retention found the Laboratory to be in
         compliance with the QAS.

     •   Eleven of the 100 forensic DNA profiles we reviewed were not
         allowable for inclusion in NDIS and should not have been uploaded.
         Nine profiles belonged to the victims, one profile was not
         attributable to a putative perpetrator, and one profile was the
         suspect’s own profile taken from his clothing at the time of arrest.
         The Laboratory deleted these 11 profiles from NDIS while we were
         on site. The remaining 89 profiles we reviewed were complete,
         accurate, and allowable for inclusion in NDIS.

      We made one recommendation to address the Laboratory’s compliance
with standards governing CODIS activities, which are discussed in detail in
the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are detailed in Appendix I of the report,
and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we
requested a written response to a draft of our audit report from the FBI and
the Laboratory. These responses are detailed in Appendices III and IV.

                                      ii
                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 2
   CODIS Structure .............................................................................. 2
   NDIS 3
   Laboratory Information ..................................................................... 6
FINDINGS AND RECOMMENDATIONS................................................ 7
   I. Compliance with NDIS Participation Requirements ............................ 7
          Results of the OIG Audit ........................................................... 7
          Conclusion .............................................................................. 8
   II. Compliance with the Quality Assurance Standards ........................... 9
          Results of the OIG Audit ........................................................... 9
          Conclusion ............................................................................ 10
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 12
          Results of the OIG Audit ......................................................... 12
          Unallowable Profiles ............................................................... 13
          Conclusion ............................................................................ 14
          Recommendations .................................................................. 14
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 15
APPENDIX II - AUDIT CRITERIA ..................................................... 18
APPENDIX III - GRANTEE RESPONSE TO THE DRAFT REPORT ........ 22
APPENDIX IV - FBI RESPONSE TO THE DRAFT REPORT................... 24
APPENDIX V - ACTIONS NECESSARY TO CLOSE THE REPORT .......... 26
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
 BEXAR COUNTY CRIMINAL INVESTIGATION LABORATORY
                SAN ANTONIO, TEXAS

                                 INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Bexar County
Criminal Investigation Laboratory (Laboratory).

Background

       The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows these laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons. 2 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from July 2008 through June
2010. The objectives of our audit were to determine if: (1) the Laboratory
was in compliance with the National DNA Index System (NDIS) participation
requirements; (2) the Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) the Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. Appendix I contains a detailed description of
our audit objectives, scope, and methodology, while the criteria used to
conduct our audit are presented in Appendix II.




       2
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along
with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS. 3

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency —
or the U.S. Department of Defense — in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the

      3
          42 U.S.C.A. § 14132 (2006).

                                        2
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are eight searchable indices
discussed below.

                                                  3
      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 4

      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 5

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 6

      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      •   Detainee Index consists of DNA records from non-United States
          (U.S.) persons detained under the authority of the U.S. and
          required by law to provide a DNA sample.

      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes, and (2) identify missing and unidentified
persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches

      4
        The phrase “qualifying offenses” is used here to refer to local, state, or federal
 crimes that require a person to provide a DNA sample in accordance with applicable laws.
      5
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
      6
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                             4
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indices in CODIS, such
as through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Missing Persons Index and the
Relatives of Missing Persons Index. The profiles within the Missing Persons
and Unidentified Human (Remains) Indices may also be vetted against the
Forensic, Convicted Offender, Arrestee, and Legal Indices to provide
investigators with leads in solving missing and unidentified persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

      The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. The probability of a false match

                                       5
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       The Laboratory is an independent, fee-for-service Local DNA Index
System (LDIS) laboratory that is currently part of the Community Resources
Department of Bexar County. This unique arrangement places the
Laboratory outside the direct influence of its customer base, law
enforcement agencies. The Laboratory provides forensic laboratory support
for criminal investigation activities for agencies in approximately 50 counties
in South Central and West Texas, several states, and internationally for the
Royal Cayman Islands Police Service. The largest single agency served by
the Laboratory is the San Antonio Police Department. The Laboratory began
using DNA in the processing of criminal case evidence in 1988 and began
uploading forensic profiles to the National DNA Index System (NDIS) in
1998. The Laboratory has been accredited by the American Society of Crime
Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) since
1998.




                                       6
              FINDINGS AND RECOMMENDATIONS


     I. Compliance with NDIS Participation Requirements

     The results of our testing of compliance with NDIS Standards did
     not identify any instances of noncompliance with the NDIS
     participation requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that CODIS access is
properly safeguarded, Laboratory personnel requirements are being fulfilled,
and policies and procedures related to NDIS are available and followed by
Laboratory staff. These results are described in more detail below.

     •   NDIS requires that CODIS be physically and electronically
         safeguarded from unauthorized use and only accessible to limited
         approved personnel. The Laboratory’s one CODIS workstation is in
         a separate room in secured Laboratory space and only CODIS users
         are allowed to use this workstation. All users have their own
         CODIS user account and password, and the computer screen locks
         after 10 minutes of inactivity. The CODIS Administrator makes
         backups weekly and physically transfers them to a secure off-site
         location.

     •   NDIS operational procedures require that CODIS users be aware of
         the NDIS procedures, know where to find them, and have access to
         them. We confirmed with two of the Laboratory’s CODIS users that
         they were aware of the procedures. We verified that Laboratory
         staff knew where to find and access the procedures in the
         Laboratory by having the two CODIS users show us where to find
         them.


                                      7
     •   CODIS users are required to complete annually DNA Records
         Acceptance training. We verified with the FBI that all current
         CODIS users had completed the web-based training.

     •   The FBI requires that the Laboratory submit fingerprint cards,
         background information, CODIS user information, and other
         appropriate documentation regarding CODIS users. We verified
         that the Laboratory submitted all required information for each
         CODIS user to the FBI.

     •   NDIS requires that participating Laboratories maintain personnel
         files for CODIS users, including proficiency testing, training, and
         other reports, for 10 years. According to Laboratory officials,
         personnel records, including professional development records, DNA
         and non-DNA training, and educational transcripts, are kept
         indefinitely. This practice exceeds the NDIS requirements that
         records be kept for 10 years.

     •   NDIS procedures require a match confirmation process when
         matches are identified in the CODIS system. We judgmentally
         selected a sample of five NDIS matches and found the Laboratory
         to be timely in match confirmation requests, match confirmations,
         confirmation dispositions, and the notification to investigators of
         forensic matches.

Conclusion

       For the areas we tested, we determined that the Laboratory was in
compliance with NDIS participation requirements. We did not identify any
deficiencies in safeguarding CODIS, annual training forms, personnel
records, or NDIS matches. We made no recommendations concerning our
review of NDIS participation requirements.




                                      8
       II. Compliance with the Quality Assurance Standards

           We reviewed the Laboratory’s compliance with the FBI’s Quality
           Assurance Standards (QAS) by examining the most recent internal
           and external reviews, and the Laboratory’s policies and procedures
           for sample processing, sample security, and sample retention. We
           found the Laboratory was in compliance with these standards.

       During our audit, we considered the Forensic Quality Assurance
Standards issued by the FBI. 7 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. 8 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

      We found that the Laboratory complied with the Forensic QAS tested.
Specifically, we found that the Laboratory is reviewed annually, has
adequate building and evidence security, and has appropriate quality
assurance policies. These results are described in more detail below.

   •   The QAS requires laboratories to undergo an annual review, including
       an external review every 2 years. We determined that the Laboratory
       complied with this requirement by undergoing an annual review and by
       alternating between an internal and an external review each year.

   •   We obtained the most recent internal and external reviews for the
       Laboratory. We determined that for both reviews, the required FBI
       audit document was used, all instances of noncompliance were
       reported, all reviewers had completed the FBI’s reviewer training
       course, and adequate corrective action for review findings was
       developed by the Laboratory. Although one review contained findings,
       there were no repeat deficiencies.

       7
         Forensic Quality Assurance Standards refers to the Quality Assurance Standards
for Forensic DNA Testing Laboratories, effective July 1, 2009.

       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits are
not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                              9
  •   In order for us to rely on the external review report, external
      reviewers must confirm they were independent at the time of the
      review. We requested and received a completed reviewer
      independence statement from each reviewer who participated in the
      external review.

  •   We verified that the entrances to the Laboratory are properly secured
      and controlled with touch keypads, security cameras, and a
      receptionist for the public entrance to prevent access by unauthorized
      personnel. Areas within the Laboratory are also secured by touch
      keypads, and only authorized personnel for that area have codes. All
      visitors are escorted within the building. Overall security at the
      Laboratory appears to be adequate and in compliance with the QAS
      requirements that we tested.

  •   The integrity of physical evidence is maintained by the Laboratory in
      accordance with the QAS standards that we tested. Specifically, the
      evidence receiving room assigns a tracking number for the evidence
      and begins a chain of custody record. The Laboratory adds it own
      unique case number ending with the item number. The evidence
      number is entered into the Laboratory’s computerized tracking system.
      Through observation, we determined that evidence is properly stored
      from the point of receipt through processing. To ensure the accuracy
      of data loaded into the database, the Laboratory technically reviews all
      case files and completes a checklist for each sample prior to uploading
      to CODIS.

  •   The QAS requires laboratories to perform evidence examination, DNA
      Extraction, and PCR setup at separate times or in separate places. For
      known and unknown samples, the Laboratory performs the
      examination, extraction, PCR setup, and amplification in separate
      rooms and times within the Laboratory.

  •   The Laboratory stores forensic samples in secure areas. Specific to
      forensic samples, prior to processing an analyst takes cuttings. These
      cuttings are kept indefinitely and the original evidence is returned to
      the submitting agency.

Conclusion

      The Laboratory was in compliance with the FBI’s QAS we tested,
including internal and external reviews, laboratory security, security of
evidence samples, separation of known and unknown samples, and retaining

                                      10
samples after analysis. We made no recommendations concerning our
review of Quality Assurance Standards.




                                  11
     III. Suitability of Forensic DNA Profiles in CODIS Databases

      Our review of a sample of 100 forensic DNA profiles uploaded to
      NDIS revealed 11 unallowable profiles. One profile was a known
      profile from a suspect’s clothing, one profile was not attributable
      to a putative perpetrator, and nine profiles were known profiles
      of victims. A Laboratory official informed us that, prior to
      December 2002 when these profiles were analyzed; the
      Laboratory personnel did not have a clear understanding of what
      was allowable in NDIS. The Laboratory agreed with our
      evaluation and deleted these profiles from CODIS while we were
      on site.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results and that the values at each locus match those
identified during analysis. 10 Our standards are described in more detail in
Appendix II of this report.

       The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person, unless the known person
is a suspected perpetrator. The NDIS procedures we reviewed are listed in
Appendix II of this report.

Results of the OIG Audit

       We selected a random sample of 100 profiles out of the 1,816 forensic
profiles the Laboratory reported it had uploaded to NDIS as of July 27,
2010. 11 Of the 100 forensic profiles sampled, we found 11 were unallowable
for upload to NDIS. The remaining profiles sampled were complete,
accurate, and allowable for inclusion in NDIS. The specific exceptions are
explained in more detail below.


      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.
      11
           See Appendix I for further details about the audit scope.

                                               12
Unallowable Profiles

      Our review resulted in the identification of 11 unallowable profiles.

      In December 2006, the FBI issued a flowchart with eight general
principles to assist DNA analysts in determining if a profile is eligible for
upload to NDIS. The unallowable profiles were attributed to the following
three general principles.

      FBI General Principle number 4 states that a profile must be
attributable to a putative perpetrator. General Principle number 5 disallows
the inclusion of the profile if it is attributable to the victim. General Principle
number 8 states that a suspect’s profile can reasonably be expected to be on
an item that belongs to the suspect and is not allowable.

     The following table describes the 11 unallowable profiles that the
Laboratory deleted and the reasons they were unallowable in NDIS.

             Eleven Unallowable Profiles Deleted from NDIS

                          FBI General
                            Principle         FBI General       FBI General
                           Number 4             Principle         Principle
        Sample             (Putative           Number 5          Number 8
        Number            Perpetrator)          (Victim)         (Suspect)
         CA-25                                                        X
         CA-45                                    X
         CA-46                 X
         CA-56                                    X
         CA-58                                    X
         CA-62                                    X
         CA-65                                    X
         CA-68                                    X
         CA-76                                    X
         CA-83                                    X
         CA-93                                    X
   Source: OIG Analysis

       Laboratory personnel provided documentation that the unallowable
profiles had been deleted from NDIS. Laboratory management told us that
Laboratory personnel uploaded any profile developed from evidence from a
crime scene submitted by a law enforcement agency until December 2002
when all CODIS users were required to sign an Annual Review of DNA

                                         13
Records Acceptable at NDIS form. At that time, it was made clear to
Laboratory management that certain profiles were unallowable. Laboratory
management said that Laboratory personnel now consult the FBI’s flowchart,
and each profile is reviewed for allowability.

      Once we presented our results to Laboratory officials, Laboratory
personnel discovered that all but one of the unallowable victims’ profiles had
been entered into NDIS between the middle of 2001 and the end of 2002.
Laboratory management did not have an explanation for this pattern, but
stated that the Laboratory would re-examine all the profiles during that
timeframe and delete any profiles that were unallowable.

Conclusion

      For the 100 forensic profiles we tested, we found 11 that were
unallowable according to FBI General Principles. Laboratory officials agreed
with our conclusions and removed these profiles from NDIS. Because nine
of the profiles were known samples of victims and eight of the samples were
analyzed between 2001 and 2002, we make one recommendation regarding
the profiles that the Laboratory maintains at NDIS.

Recommendations

      We recommend that the FBI:

      1.    Require the Laboratory to review all profiles from
            January 1, 2001, through December 31, 2002, and remove any
            unallowable profiles from NDIS.




                                      14
                                                                          APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from July 2008 through
June 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory review reports and
       supporting documentation for corrective action taken, if any, to
       determine: (a) if the Laboratory complied with the QAS, (b) whether
       repeat findings were identified, and (c) whether recommendations were
       adequately resolved.12

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.

       12
           The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             15
       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory reviews to determine if
       the Laboratory complied with the QAS. 13 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence DNA samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 5 of 28 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of August 4, 2010.
       The sample was judgmentally selected to include both case-to-case and
       case-to-offender matches. This non-statistical sample does not allow
       projection of the test results to all matches.

   •   Reviewed the case files for selected forensic DNA profiles to determine if
       the profiles were developed in accordance with the Forensic QAS and
       were complete, accurate, and allowable for inclusion in NDIS.


       13
          We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.

                                             16
     We were unable to obtain the forensic profile information directly from
     NDIS because of the large number of profiles involved, and because FBI
     management controls at the NDIS level prohibit the dissemination of
     information in an electronic format. Therefore, working in conjunction
     with the contractor used by the FBI to maintain NDIS and the CODIS
     software, the Laboratory provided us with an electronic file identifying
     the 1,816 STR forensic profiles the Laboratory reported it had uploaded
     to NDIS as of July 27, 2010. We attempted to verify that the total
     number of the Laboratory’s profiles in LDIS that were designated as
     processed by NDIS agreed with the total number of the Laboratory’s
     forensic profiles in NDIS as of the same date. When we contacted the
     FBI to verify the number of profiles, the FBI was able to confirm that on
     September 13, 2010, there were 1,802 profiles in NDIS. Since the total
     number of profiles was 14 profiles apart, we conducted additional
     analysis to reconcile the 1,816 profiles reported by the Laboratory and
     the 1,802 profiles reported by the FBI. We determined that 1 profile
     was deleted on August 26, 2010, 12 profiles were deleted on
     September 1, 2010, and 1 profile was unmarked in NDIS in 2006
     because it violated one of the FBI’s eight general principles for
     allowability in NDIS.14

     Based on this reconciliation, we considered this universe of LDIS profiles
     to be representative of the Laboratory’s profiles contained in NDIS. We
     limited our review to a sample of 100 profiles. This sample size was
     determined judgmentally because preliminary audit work determined
     that risk was not unacceptably high.

     Using the judgmentally-determined sample size, we randomly selected a
     representative sample of labels associated with specific profiles in our
     universe to reduce the effect of any patterns in the list of profiles
     provided to us. However, since the sample size was judgmentally
     determined, the results obtained from testing this limited sample of
     profiles may not be projected to the universe of profiles from which the
     sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.


     14
         Unmarked means the profile is not searched in NDIS or SDIS but remains
 searchable in LDIS.

                                         17
                                                              APPENDIX II

                            AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational
procedures, establish the responsibilities and obligations of laboratories that
participate in NDIS. The MOU requires that NDIS participants comply with
federal legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Audits
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS):
(1) QAS for Forensic DNA Testing Laboratories, effective July 1, 2009
(Forensic QAS) and (2) QAS for DNA Databasing Laboratories, effective July
1, 2009 (Offender QAS). The Forensic QAS and the Offender QAS describe
the quality assurance requirements that the Laboratory should follow to
ensure the quality and integrity of the data it produces.



                                      18
       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented evidence base control system to ensure the
       integrity of database and physical evidence.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The
       annual audits shall occur every calendar year and shall be at least 6
       months and no more than 18 months apart.
       At least once every 2 years, an external audit shall be conducted by
       an audit team comprised of qualified auditors from a second
       agency(ies) and having at least one team member who is or has been
       previously qualified in the laboratory’s current DNA technologies and
       platform.

   •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
       vendor laboratory performing forensic and database DNA analysis shall

                                       19
      comply with these Standards and the accreditation requirements of
      federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow, and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, Known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.

  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;
      or (2) result in a false match that would require the unnecessary use
      of laboratory resources to refute the match.

  •   Timely Notification of Law Enforcement When DNA Profile Matches
      Occur in NDIS: Laboratories should notify law enforcement personnel
      of NDIS matches within 2 weeks of the match confirmation date,
      unless there are extenuating circumstances. Our rationale for this
      standard is that untimely notification of law enforcement personnel
      may result in the suspected perpetrator committing additional, and


                                     20
possibly more egregious, crimes if the individual is not deceased or
already incarcerated for the commission of other crimes.




                               21
                                                                          APPENDIX III


                          BEXAR COUNTY
               CRIMINAL INVESTIGATION LABORATORY
                                       7337 Louis Pasteur
                                  San Antonio, Texas 78229-4565
                                        (210) 335-4102
                                      FAX (210) 335-4101

October 28, 2010

Mr. David Sheeren
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Denver Regional Audit Office
Denver, Colorado 80203

Mr. Sheeren,

The Bexar County Crime Laboratory accepts the findings of this audit. It is our intention to
follow the recommendation in the finding section “Suitability of Forensic Profiles CODIS
Databases” and review all profiles from January 1, 2001, through December 31, 2002, and
remove any unallowable profiles from NDIS.

For the purpose of clarification, we recommend the following changes for your consideration.

   •   The Bexar County Crime Laboratory does not receive, process, analyze and/or store
       convicted offender samples (page 23 of 29, third paragraph...page 16 of the actual audit).
   •   Though the Bexar County Crime laboratory is not an “Offender” data basing laboratory,
       “Offender” Quality Assurance Standards are included in the Audit Criteria (Appendix
       II). This may be confusing to the general public.
   •   The report states, “Our audit generally covered the period from July 2008 until June
       2010,” (page 6). It would seem more appropriate to state 1998 to 2010 since the
       Laboratory was asked to provide all documentation / case files going back to the
       beginning of CODIS entry.
   •   The report states, "laboratory that is currently part of the Community Investment
       Department of Bexar County," (page 6). This should be "Community Resources
       Department."




                                               22
Thank you for the opportunity to respond to the audit findings. If you have any further question,
I may be contacted at 210-335-4100.

Sincerely,

Timothy C. Fallon
Crime Laboratory Director
Bexar County Criminal Investigation Laboratory




                                               23
                                                                                      APPENDIX IV

                                                         U.S. Department of Justice


.                                                        Federal Bureau of Investigation



____________________________________________________________________________________________
                                                  Washington, D. C. 20535-0001

                                                         November 2, 2010




Mr. David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, CO 80203



Dear Mr. Sheeren:

                 Your memorandum to Director Mueller forwarding the draft report of the audit
conducted at the Bexar County Criminal Investigation Laboratory San Antonio (Laboratory) has been
referred to me for response.

               Your draft report contained one recommendation relating to the Laboratory's
compliance with the FBI's Memorandum of Understanding and Quality Assurance Standards/or
DNA Testing Laboratories. The CODIS Unit has reviewed the draft audit report and offers the
following comment.

                 With respect to recommendation one relating to the review of forensic profiles to ensure
the allowability of those profiles uploaded to NDIS from January 1, 2001 through December 31, 2002,
the Laboratory anticipates that its review will be completed by August 30, 2011. The CODIS Unit will
monitor the Laboratory's progress in completing this task.




                                                   24
                  Thank you for sharing the draft audit report with us. If you have any questions, please
feel free to contact Jennifer C. Luttman, Chief of the CODIS Unit, at (703) 632-8315.



                                                         Sincerely,



                                                          Alice R. Isenberg, Ph.D
                                                          Section Chief
                                                          Biometrics Analysis Section
                                                          FBI Laboratory




                                                    25
                                                           APPENDIX V

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                   CLOSE REPORT


1.   RESOLVED. We recommended that the FBI require the Laboratory to
     review all profiles from January 1, 2001 through December 31, 2002
     and remove from NDIS any unallowable profiles. This
     recommendation can be closed when we receive documentation that
     all unallowable profiles as a result of this review have been removed
     from NDIS.




                                   26
